[United States Court of Appeals
Fifth Circuit
FILED
September 18, 2019
Lyle W. Cayce
Clerk]
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT COURT
__________________
No. 18-10976
__________________
IN RE: PROVIDENT ROYALTIES L.L.C.
Debtor
MILO H. SEGNER, JR.,

Plaintiff - Appellant

v.
CIANNA RESOURCES INCORPORATED,
Defendant - Appellee
__________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:12-CV-1318
__________________
Before KING, ELROD, AND ENGELHARDT,
Circuit Judges.
1a

PER CURIAM: *
On appeal, Bankruptcy Trustee Milo Segner,
Jr., contends the district court erred in denying his
motion for a new trial and motion for judgment as a
matter of law. Both motions contested the jury’s
verdict finding third-party transferee, Cianna
Resources, Inc., accepted monetary transfers in good
faith for purposes of the avoidance recovery exception
set forth in 11 U.S.C. § 550(b). Segner also contends
the district court abused its discretion in finding
deemed admissions, pursuant to Federal Rule of Civil
Procedure 36, did not preclude Cianna from
introducing evidence pertinent to the issue of value
for purpose of § 550(b), and in not requiring the jury
to decide the issues of good faith and value on a
transfer-by-transfer basis.
Having carefully reviewed the parties’ briefs,
applicable law, and the record in this matter,
particularly including the district court’s wellreasoned and thorough “Memorandum Opinion and
Order,” we find no reversible error. Rather, the record
reflects that the jury was presented with all relevant
evidence (including live witness testimony), heard
argument by counsel and received the necessary
instruction regarding applicable law by the district
court. And, in the end, the jury’s assessment,
including its credibility determinations, favored
Cianna.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

*

2a

Although the result might have differed if the
district judge, rather than a jury, had been the trier
of fact, that is not the pertinent inquiry. 1 Rather, “[a]
trial court should not grant a new trial on evidentiary
grounds unless the verdict is against the great weight
of the evidence.” Dotson v. Clark Equip. Co., 805 F.2d
1225, 1227 (5th Cir. 1986). Similarly, a Rule 50
motion for judgment as a matter of law must be
denied “unless the facts and inferences point so
strongly and overwhelming in the movant’s favor that
reasonable jurors could not reach a contrary
conclusion.” Flowers v. S. Reg’l Physician Servs. Inc.,
247 F.3d 229, 235 (5th Cir. 2001) (internal quotation
omitted); see also FED. R. CIV. P. 50(a). Further, in
deciding such a challenge, this court’s standard of
review relative to jury verdicts is “especially
deferential.” Flowers, 247 F.3d at 235. “[W]e consider
all of the evidence, drawing all reasonable inferences
and resolving all credibility determinations in the
light most favorable to the non-moving party.” Id.
Employing these standards, we cannot say the
jury’s verdict is against the great weight of the
In affirming the district court, we in no way sanction or condone
the conduct or business practices of any of the pertinent entities
– the debtor (Provident Royalties, LLC), Ruthven Oil & Gas,
LLC, or Cianna. While many of the business practices employed
here appear ill-advised and sloppy, if not shady, and likely were
strongly motivated by self-interest and a “limited-time” profit
opportunity, acceptable business and legal practices differ, to
some extent, between regions and industries. In any event,
Cianna’s fact and the expert witnesses offered some
explanation(s) in response to Trustee’s contentions and,
importantly, both the jury and district judge had an opportunity
to consider all of the trial evidence and, unlike this court, make
the necessary credibility determinations.
1

3a

evidence or that a reasonable person could only have
reached an opposite decision. Nor has reversible legal
error been identified. Similarly, we find no abuse of
discretion relative to the district court’s admission of
evidence or formulation of the jury verdict form.
Accordingly, we AFFIRM.

4a

[United States Court of Appeals
Fifth Circuit
FILED
September 18, 2019
Lyle W. Cayce
Clerk]
Certified as a true and correct copy
and issued as the mandate on Oct
10, 2019
Attest: Lyle W. Cayce
Clerk, U.S. Court of Appeals,
Fifth Circuit
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT COURT
__________________
No. 18-10976
__________________
D.C. Docket No. 3:12-CV-1318
IN RE: PROVIDENT ROYALTIES L.L.C.
Debtor
MILO H. SEGNER, JR.,

Plaintiff - Appellant

v.
CIANNA RESOURCES INCORPORATED,
Defendant – Appellee
5a

Appeal from the United States District Court
for the Northern District of Texas
Before KING, ELROD, AND ENGELHARDT,
Circuit Judges.
JUDGMENT
This cause was considered on the record on
appeal and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed.
IT IS FURTHER ORDERED that each party
bear its own costs on appeal.

6a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
MILO H. SEGNER, JR, as
Liquidating Trustee of the
PR Liquidating Trust
Plaintiff,
v.
RUTHVEN OIL & GAS, LLC,
ET AL.,
Defendants.

§
§
§
§
§
§
§ CIVIL ACTION
§ NO. 3:12-CV§ 1318-B
§
§
§
§

FINAL JUDGMENT
IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that because the jury found that
Cianna Resources, Inc. established the element of its
affirmative defense under 11 U.S.C. § 550 (b),
Plaintiff Milo H. Segner, Jr., Liquidating Trustee of
the PR Liquidating Trust shall take nothing in this
case.
SO ORDERED.
Signed: June 28, 2018.
s/ Jane J. Boyle
JANE J. BOYLE
UNITED STATES
DISTRICT JUDGE
7a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
MILO H. SEGNER, JR, as
Liquidating Trustee of the
PR Liquidating Trust
Plaintiff,
v.
RUTHVEN OIL & GAS, LLC,
ET AL.,
Defendants.

§
§
§
§
§
§
§ CIVIL ACTION
§ NO. 3:12-CV§ 1318-B
§
§
§
§

MEMORANDUM OPINION AND ORDER
In this bankruptcy dispute, trustee Milo
Segner (Segner) seeks to recover about $21.7 million
of fraudulently transferred money from Cianna
Resources, Inc (Cianna). The only issue at trial was
whether Cianna could avoid liability by showing that
it received the money in exchange for value, in good
faith, and without knowledge that the transfer was
avoidable. A jury returned a verdict for Cianna. And
Segner responded by moving for judgment as a matter
of law and for a new trial. The Court DENIES both
motions.

8a

I.
BACKGROUND 1
A.

Factual History

Provident Royalties, LLC (Provident) engaged
Ruthven Oil & Gas, LLC (Ruthven) to help it find and
acquire mineral interests. Doc. 299-10, Pl. Mot. New
Trial App., Ex. J. Ruthven approached Cianna to help
it help Provident by acquiring mineral interests in
certain Oklahoma counties Provident specified. Trial
Tr. Vol. I, 87-88. In a series of 197 transactions,
Cianna acquired the mineral interests and
transferred them to Ruthven, Doc. 299-7, Pl. Mot.
New Trial App., Ex. G. Corresponding sums of money
flowed from Provident to Ruthven to Cianna to the
mineral owners. Id. Cianna received $500 per acre
acquired in compensation. Trial Tr. Vol. I, 88. Overall,
Provident transferred $48,812,882.24 to Ruthven,
Doc. 100, Adopted Findings of Fact and Conclusion of
Law, 2, and Ruthven sent $21,117,572.79 to Cianna.
Bankr. Doc. 423-1, Am. Ruling, 25.
B.

Procedural History

Provident filed for bankruptcy in June 2009,
Bankr. Doc. 1, Compl., ¶ 24, and, in June 2011, Milo
Segner filed this adversary proceeding in the
bankruptcy court against Ruthven, Cianna, and
others. Id. ¶ 1. The defendants moved in April 2012 to
withdraw the reference from the bankruptcy court.
Doc. 1, Mot. For Withdrawal of Reference. The case
was reassigned to this Court in May 2013, Doc. 34,
but the Court referred the case back to the
1 This factual history is drawn from the evidence presented at
trial and the earlier stages of the case.

9a

bankruptcy court for pretrial matters to be resolved,
Doc. 73, Order of Reference. After de novo review of a
report and recommendation of the bankruptcy judge
in September 2015, this Court determined that
Provident’s transfer of the $48,812,882.24 to Ruthven
and subsequent transfers of that money by Ruthven,
including the transfers to Cianna now at issue, are
avoidable under 11 U.S.C. § 548(a)(1)(A). Doc. 100,
Mem. Op. & Order, 2. And in November 2015, the
Court dismissed Segner’s claims against all the
defendants except for Cianna pursuant to a
settlement agreement. Electronic Order Granting
Doc. 105 Motion for Voluntary Dismissal of Claims.
After the settlement and a summary-judgment
ruling establishing that Cianna was a transferee 2 as
to the $21,117,572.79 it received from Provident via
Ruthven, Doc. 242, Mem. Op. & Order, the only
remaining issue was whether Cianna could establish
the affirmative defense that required it to show that
it received the money in exchange for value, in good
faith, and without knowledge that the transfers were
avoidable. See 11 U.S.C. § 550(b). 3 On that issue, a
jury returned a verdict for Cianna. Doc. 296, Jury
A bankruptcy trustee can recover only from a transferee. 11
U.S.C. § 550(a).

2

3

Section 550(b) states,
The trustee may not recover under section (a)(2) of this
section from
(1) a transferee that takes for value, including
satisfaction or securing of a present or antecedent debt,
in good faith, and without knowledge of the voidability
of the transfer avoided; or
(2) any immediate or mediate good faith transferee of
such transferee.

10a

Verdict. Now, dissatisfied with the verdict and many
of the Court’s trial-related rulings, Segner has moved
for judgment as a matter of law and a new trial. Doc.
297, Mot. J. as Matter of Law; Doc. 300, Mot. New
Trial. The motions are ripe for review.
II.
LEGAL STANDARD
A.

Rule 50(b): Motion for Judgment as a Matter of
Law

A court should grant a motion for judgment as
a matter of law under Federal Rule of Civil Procedure
50(b) only if “there is no legally sufficient evidentiary
basis for a reasonable jury to find for that party on
that issue.” Cano v. Bexar Co., 280 F. Appx. 404, 406
(5th Cir. 2008) (internal citations omitted). The Court
“should consider all of the evidence—not just that
evidence which supports the non-mover’s case—but in
the light and with all reasonable inferences most
favorable to the party opposed to the motion.” Mosley
v. Excel Corp., 109 F.3d 1006, 1008–09 (5th Cir. 1997).
The court must not make credibility decisions or
weigh the evidence in making its determination.
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 150 (2000).
B.

Rule 59: Motion for New Trial

A Court can “grant a new trial . . . after a jury
trial, for any reason for which a new trial has
heretofore been granted in an action at law in federal
court.” FED. R. CIV. P. 59(a)(1)(A). In this Circuit, a
district court can grant a new trial if “the verdict is
against the great weight of the evidence . . . the trial
was unfair, or prejudicial error was committed. Smith
11a

v. Transworld Drilling Co., 773 F.2d 610, 613 (5th Cir.
1985). Courts are to decide whether to grant a new
trial based on their assessment of the fairness of the
trial and the reliability of the jury’s verdict. Seidman
v. Am. Airlines, Inc., 923 F.2d 1134, 1140 (5th Cir.
1991). And the decision whether to grant a new trial
is “within the sound discretion of the trial court.”
Shows v. Jamison Bedding, Inc., 671 F.2d 927, 930
(5th Cir. 1982)).
III.
ANALYSIS
If a transfer is avoidable under the Bankruptcy
Code, as the transfers to Cianna are, “the trustee may
recover, for the benefit of the estate, the property
transferred . . . from (1) the initial transferee of such
transfer or . . . (2) any immediate or mediate
transferee of such initial transferee.” 11 U.S.C §
550(a). But “[t]he trustee may not recover under
section (a)(2) of this section from (1) a transferee that
takes for value, including satisfaction or securing of a
present or antecedent debt, in good faith, and without
knowledge of the voidability of the transfer avoided.”
§ 550(b)(1). Cianna bore the burden at trial of
establishing the elements of § 550(b)(1).
A.

Rule 50(b): Motion for Judgment as a Matter
of Law

Segner argues that the Court should award it
judgment as a matter of law on Cianna’s § 550(b)
defense for five 4 reasons.
4 Segner’s fifth reason is that the jury’s verdict was against the
great weight of the evidence. The Court will address this

12a

1.

Oklahoma Documentary Stamp Act and
Cianna’s Good Faith

Segner argues that its evidence that Cianna
violated the Oklahoma Documentary Stamp Tax Act
(ODSTA) establishes as a matter of law that Cianna
did not receive the money from Ruthven in good faith.
Doc. 298, Pl. Mot. J. as Matter of Law Br., 1. But
Segner’s argument ignores that Cianna’s good faith
hinged on what it knew or should have known about
Provident. See In re Am. Hous. Found., 785 F.3d 143,
164 (5th Cir. 2015) (noting in fraudulent-transfer case
that good-faith inquiry looks “to whether the
[transferee] was on notice of the debtor’s insolvency or
the fraudulent nature of the transaction”). That
Cianna overstated on ODSTA documents the value of
the interests it transferred does not establish as a
matter of law that Cianna knew or should have
known that Provident was defrauding its investors.
Of course, Segner characterized Cianna’s stamp-tax
misrepresentations as evidence that Cianna was part
of, knew of, or should have known of Provident’s
scheme, but the jury disagreed. The Court will not
disturb the jury’s decision.
Segner now says the UCC’s definition of good
faith governs this case rather than the good-faith
standard in the jury charge. Doc. 298, Pl. Mot. J. as
Matter of Law Br., 2. But Segner waived this
argument by not asking for the UCC definition to be
included in the jury charge. See Doc. 228, Pl. Proposed
Jury Instructions, 12.
argument in its discussion of Segner’s motion for a new trial.
Doc. 298, Pl. Mot. J. as Matter of Law Br., 16.

13a

Even if Segner did not waive this argument,
the UCC’s definition does not govern this case.
Untethered from a transferee’s knowledge of the
bankrupt’s relationship with its creditors, the UCC
definition of good faith requires only honesty in fact
and observance of reasonable commercial standards.
Doc. 298, Pl. Mot. J. as Matter of Law Br., 2. The
bankruptcy code does not include the UCC’s
definition, and Courts in this circuit have applied a
definition of good faith tied to a transferee’s
knowledge or constructive knowledge of the
bankrupt’s financial situation, Am. Hous., 785 F.3d at
164. The court thus declines to apply the UCC’s
definition of good faith. Doc. 298, Pl. Mot. J. as Matter
of Law Br., 2.
Segner’s argument fails even under the UCC
standard. Segner seems to propose a rule under
which, if a party violates a law in the process of
entering into a transaction, a court must find as a
matter of law that the party did not enter into that
transaction in good faith. Doc. 298, Pl. Mot. J. as
Matter of Law Br., 4. Segner’s rule is untenable.
Surely a contracting party who violated the speed
limit while driving to a contract closing would not
transact bad faith by driving too fast.
Nor do the cases Segner cites support its
conclusion that Cianna acted in bad faith. In Rudiger
Charolais Ranches v. Van de Graaf Ranches, a
rancher sold cattle to a merchant, who sold the cattle
to a buyer. 994 F.2d 670, 671, (9th Cir. 1993). The
buyer paid for and received the cattle but did not
verify that the merchant owned the cattle. Id. After
the merchant never paid the Rancher for the cattle,
14a

the rancher sought to recover from the buyer. Id. For
the buyer to have held good title under Washington
law, he had to have received the cattle in good faith.
Id. at 672. And to have received the cattle in good
faith, the buyer must have observed reasonable
commercial standards when he purchased it. Id. The
court found as a matter of law that the buyer did not
observe reasonable commercial standards because he
violated a Washington cattle-rustling-prevention
statute by taking possession of the cattle without
verifying that the merchant owned the cattle. Id. at
673. Segner says Cianna cannot have acted in good
faith because, like the buyer, it violated the law—by
lying on the ODSTA. Doc. 298, Pl. Mot. J. as Matter
of Law., Br., 6.
This case is different from Rudiger. In Rudiger,
the statute the rancher sought to enforce allowed
buyers to keep stolen property if they observed
reasonable commercial standards when they
purchased the property. Rudiger, 994 F.2d at 672.
Another statute required cattle buyers to take title
papers with the purchased cattle to prevent cattle
rustling. Id. Here, like in Rudiger, § 550(b) allows
Cianna to keep what is received from Ruthven if it
received the property in good faith. But unlike the
cattle-rustling statute in Rudiger, the ODSTA is
irrelevant to the question of whether a purchaser is
receiving something to which another person might
actually be entitled; it merely imposes a tax on
transactions. This case would be like Rudiger had
Cianna violated a statute requiring it to determine
whether the funds it received might be claimed by
anyone else, such as Provident’s creditors. Because
15a

the ODSTA imposed no such obligation on Cianna,
Segner’s reliance on Rudiger is misguided.
So is Segner’s reliance on Philadelphia Gear
Corp. v. Central Bank, 717 F.2d 230 (5th Cir. 2001).
There, a bank issued a letter of credit to a company.
Id. at 232. To use the credit, the company had to
submit drafts to the bank, and the drafts had to
conform to the letter of credit’s requirements. Id. The
company submitted a number of drafts to the bank
that did not follow the letter’s requirements, and the
company knew the drafts did not comply with the
letter. Id. at 233. When the bank refused to honor the
drafts, the company sued. Id. State law incorporated
a duty of good faith into every contract and provided
that, by presenting a draft, a beneficiary of a letter of
credit warranted that the draft complied with the
letter of credit. Id. at 238. The Fifth Circuit held that
the company breached both duties by knowingly
submitting nonconforming drafts and therefore could
not recover. Id. Segner contends that Cianna should
lose in this case because, like the company knowingly
submitted nonconforming drafts to the bank, Cianna
knowingly misrepresented the value of mineral
interests on ODSTA documents. Doc. 298, Pl. Mot. J.
as Matter of Law Br., 4-5.
Segner is incorrect. In Philadelphia Gear
Corp., the company acted in bad faith by breaching
duties to the bank with which it contracted. Phila.
Gear. Corp., 717 F.2d at 238. But here, Segner does
not complain that Cianna deceived Ruthven or
breached any duty it owed Ruthven by lying on the
ODSTA. Because Segner does not argue that Cianna
breached a duty to Ruthven by violating the ODSTA,
16a

Philadelphia Gear Corp. does not compel the
conclusion that Cianna acted in bad faith as a matter
of law. The Court thus rejects Segner’s ODSTA
argument.
2.

Unconscionability, Good Faith, and
Value

Segner asks the Court to rule that the contracts
in which Cianna transferred the mineral interests to
Ruthven in exchange for the $21 million were
unconscionable. Doc. 298, Pl. Mot. J. as Matter of Law
Br., 6. And once the Court finds the contracts were
unconscionable, Segner contends, the Court must find
that Cianna did not receive the money in good faith or
for value as a matter of law. Id. at 7. Segner correctly
contends that unconscionability is an issue of law the
court must decide. Hoover Slovacek LLP v. Walton,
206 S.W.3d 557, 562 (Tex. 2006). But although courts
have held that value under § 550(b) must be sufficient
to support a contract, 5 Segner has cited no cases
indicating that a federal court can take a § 550(b)
affirmative defense away from a jury by finding that
the transfer at issue involved an unconscionable
contract.
This Court will not be the first. Importing the
unconscionability doctrine would frustrate the
purpose of § 550. Sections 550(a) and 550(b) strike a
balance between protecting the creditors of bankrupt
See 5 Alan N. Resnick & Henry J. Sommer, Collier on
Bankruptcy § 550.03[1] at 550 (16th ed.) (“The ‘value’ required
to be paid by a secondary transferee is merely consideration
sufficient to support a simple contract . . . There is no
requirement that the value given by the transferee be a
reasonable or fair equivalent.”).
5

17a

entities and entities who have received money from
bankrupt entities in bona fide business transactions
not designed to defraud creditors. Section 550(a)
authorizes trustees to recover avoidable transfers, but
§ 550(b) prevents trustees from recovering avoidable
transfers from subsequent transferees “that take []
for value . . . in good faith, and without knowledge of
the voidability of the transfer. § 550(b)(1). An
unconscionability finding could defeat a § 550(b)
affirmative defense absent any reason to suspect
fraud on creditors—thereby subverting § 550(b)’s
protections for legitimate business transactions.
For example, before declaring bankruptcy, a
debtor engages in an avoidable transaction with an
immediate transferee. The entity pays the immediate
transferee $1 million. Then, the immediate
transferee, an expert artifact-collector, transfers the
$1 million to an unsophisticated elderly couple in
exchange for a rare artifact worth $10 billion. The
elderly couple has no idea what the artifact is. The
bankruptcy trustee cannot recover from the
collector—who absconded with the artifact and left
nothing behind. So the trustee goes after the elderly
couple for the $1 million. If the Court were to find the
contract unconscionable, the already-fleeced elderly
couple would have to return the $1 million to the
creditors of the bankrupt even though nothing
indicates that they were in on, knew of, or should have
known of any fraud on creditors. That would be
absurd. On the other hand, if a trustee sued the
elderly couple, there were a trial on the couple’s §
550(b) defense, and the court instructed the jury as
the Court instructed the jury in this case, the jury
would likely find for the couple, as the couple gave
18a

some value in return for the artifact and was unaware
of any fraud on creditors. The Court declines to
subvert the bankruptcy code’s protections for goodfaith transferees by independently determining that
the contracts between Ruthven and Cianna were
unconscionable.
3.

Measure of Value

Segner contends it deserves judgment as a
matter of law because Cianna had to present evidence
regarding the value of the mineral interests it
transferred to Ruthven but did not. Doc. 298, Pl. Mot.
J. as Matter of Law Br., 12.
The Court disagrees. Cianna needed to show
only value sufficient to support a contract. Doc. 295,
Jury Charge, 9; supra note 6. The jury heard evidence
that Ruthven engaged Cianna to acquire mineral
interests in certain areas in Oklahoma. Trial Tr. Vol.
I, 87-88. The jury heard evidence also that Cianna
found, acquired, and transferred to Ruthven the
mineral interests, Doc. 299-7, Pl. Mot. New Trial
App., Ex. G, and warranted title to those interests,
Trial Tr. Vol. II, 161. Based on that evidence, the jury
could have reasonably found that Cianna met the
value requirement by doing what Ruthven asked.
Segner’s argument that the Court’s “mereconduit” ruling required Cianna to meet § 550(b)’s
value element by proving the value of the mineral
interests it transferred to Cianna is incorrect. Doc.
298, Pl. Mot. J. as Matter of Law Br., 12. The ruling
to which Seger refers is the summary-judgment

19a

order 6 in which the Court ruled that Cianna failed to
create an issue of material fact as to whether it was a
transferee under § 550(a) and therefore that Cianna
was a transferee as to the $21 million as a matter of
law. Doc. 242, Mem. Op. & Order, 17-18. Segner takes
the Court’s order to establish also, as a matter of fact,
that Cianna could not have provided anything of
value in its dealings with Ruthven other than mineral
interests. Doc. 298, Pl. Mot. J as Matter of Law Br.,
13. But Segner is wrong; the Court made no factual
findings in the order.
Although the Court found that Cianna failed
to present evidence that it was not a transferee, the
Court’s ruling in no way required Cianna to present
evidence of the value of the mineral interests it
transferred to Ruthven to meet § 550(b)’s value
element.
4.

Transfer-By-Transfer

Segner argues that it is entitled to judgment as
a matter of law because Cianna failed to establish the
elements of § 550(b) for each of the 197 transfers. Doc.
298, Pl. Mot. J. as Matter of Law Br., 16. But the
evidence permitted the jury to find that Cianna met §
550(b)’s elements for each of the transactions. See
infra Section III.B.4.
B.

Rule 59(a): Motion for New Trial

Segner argues that the Court should order a
new trial for four reasons. Doc. 301-1, Pl. Mot. New
Trial Br.
6 The order was actually on Cianna’s motion to reconsider the
Court’s original summary-judgment ruling.

20a

1.

Prejudice Resulting from Discussion of
Attorney Fees

Segner complains that Cianna’s discussion of
attorney fees during Segner’s testimony and closing
argument irreversibly prejudiced the jury against
Segner. Doc. 301-1, Pl. Mot. New Trial Br., 2. Before
trial, the Court granted Segner’s fourth motion in
limine, Doc. 268, Order on Pl. Mots. in Limine, which
sought to prevent Cianna from discussing
“professional fees incurred in prosecuting litigation
on behalf of the PR Liquidating Trust,” Doc. 222, Pl.
Mots. in Limine, 3. During Cianna’s cross
examination of Segner, Cianna asked Segner how
much the trust had paid in attorney fees. Trial Tr.
Vol. III, 272. Segner responded $30 million. Id. Early
the next morning, the Court instructed the jury to
disregard the discussion of attorney’s fees from the
previous day. Trial Tr. Vol. IV, 38-40. Before closing
arguments, the Court instructed the jury that closing
statements are not evidence. Trial Tr. Vol. VI, 44. And
during closing arguments, Cianna’s attorney said,
Now, you know, these guys are—
they are great lawyers, dream
team. They are really good lawyers.
But we’re talking about somebody’s
life here. $21 million is—is not
something that you can just go cut
a check for. You’re talking about
ruining lives for the sake of putting
money in their pockets.
Now, you have to follow the Court’s
instructions. I recognize that. And
I’m not suggesting that you don’t.
21a

But what I am telling you here is if
you check no to all three questions
and you don’t check yes to all three
questions, that’s what’s going to
happen.
Id. at 122.
Neither instance of Cianna mentioning
attorney fees warrants a new trial. Both the quality
of the challenged statements and two other events at
trial minimized any prejudice Segner suffered. First,
the Court instructed the jury to disregard Segner’s
testimony that the PR Liquidating Trust spent $30
million in attorney fees, Trial Tr. Vol. IV, 38-40, and
the Court instructed the jury that the lawyers’ closing
arguments were not evidence, Trial Tr. Vol. VI, 44.
Because the Court must presume the jury followed its
instructions, see Weeks v. Angelone, 528 U.S. 225, 234
(2000), the Court’s limiting instructions cut against
Segner’s argument. Second, during cross, Segner
testified that his firm charged the trust roughly $4.5
million in fees and that he personally received from
the trust a contingency fee of 1.5% on recoveries. Trial
Tr. Vol. III, 74-75. Segner’s attorneys did not object to
this testimony and did not challenge it in its motion
for a new trial. Because Segner’s testimony about his
and his firm’s fee arrangements with the trust
demonstrated to the jury Segner’s stake in the
outcome of this case, Segner’s testimony about the
$30 million in attorney fees likely did not significantly
and unfairly prejudice the jury against Segner given
what the jury already knew about his fees. The Court
thus finds that Segner was not prejudiced enough to
deserve a trial.
22a

The cases Segner cites do not counsel
otherwise. In both Hollybrook Cottonseed Processing,
L.L.C. v. American Guaranty & Liability Insurance
Co., and Dun & Bradstreet, Inc. v. Miller, the Fifth
Circuit affirmed orders granting new trials because
no evidence supported the juries’ verdicts; only
prejudice could explain the juries’ decisions. 772 F.3d
1031, 1034 (5th Cir. 2014); 398 F.2d 218, 226 (5th Cir.
1968). This case is difference because evidence
supports the jury’s verdict. See infra Section III.B.4.
Nor is Pollock & Riley, Inc. v. Pearl Brewing
Co., 498 F.2d 1240 (5th Cir. 1974), apposite. Pollock
& Riley was not a new-trial case but a pair of
interlocutory appeals in which the Fifth Circuit
decided that trial courts should not instruct juries
about the treble-damages provisions of the federal
antitrust laws because instructing the juries about
the provisions might cause juries to award less
damages even though the purpose of the trebledamages provisions was to deter antitrust violations.
Id. at 1242–43. The case says nothing about the
prejudice required for a trial court to grant a new
trial. Segner contends that just as instructing juries
about the treble-damages provisions would have
undesirable effects on juries, Cianna’s discussion of
attorney fees was so prejudicial that the Court must
grant a new trial. Doc. 301-1, Pl. Mot. New Trial, 6.
But even if Cianna’s mention the attorney fees was
prejudicial, it was not prejudicial enough to warrant
a new trial, especially in light of the Court’s limiting
instructions.
Edward v. Sears, Roebuck & Co., 512 F.2d 276
(5th Cir. 1975), is also inapposite. Edwards was a
23a

wrongful-death case in which the Fifth Circuit said a
trial court should have granted a new trial based on
statements plaintiff’s counsel made during closing
argument. Id. at 279. Materials facts not in evidence
and inflammatory emotional appeals pervaded the
plaintiff’s counsel’s closing. Id. at 284. Counsel
discussed the value his son would place on his life,
played on his friendship with the deceased, who he
met in seminary, “evoked the image of the deceased’s
children crying at graveside and forlornly awaiting
the return of their father,” and urged the jury of a
need for retributive payments. Id. at 285. This case is
different from Edwards for two reasons. First, Segner
does not complain that Cianna’s counsel introduced
facts not in evidence; Segner complains only about
that counsel’s remarks inflamed and prejudiced the
jury against Segner. Second, Cianna’s counsel’s
comments were not as inflammatory as the comments
in Edwards. Mentioning that Segner and his
attorneys stood to gain from a plaintiff’s verdict was
not nearly as inflammatory as invoking father-son
bonds and children crying at a deceased’s graveside in
a wrongful-death case. The Court thus declines to
order a new trial based on Cianna’s fee-related
comments.
2.

Transfer-By-Transfer

Segner argues that the Court should have
required the jury to answer whether Cianna met the
§ 550(b) elements separately for each of the 197
interests that Cianna transferred to Ruthven. Doc.
301-1, Pl. Mot. New Trial, 8. Erroneous jury
instructions warrant a new trial only if they leave the
Court with substantial and ineradicable doubt as to
24a

whether the jury has been properly guided in its
deliberations. Ganz v. Lyons P’ship, L.P., 961 F. Supp.
981, 996 (N.D. Tex. 1997).
The Court disagrees with Segner. Section
550(b) provides elements a transferee must meet for
each avoided transfer. 11 U.S.C. § 550(b)(1). Thus, in
a case like this one involving multiple avoided
transactions, a defendant must meet § 550(b)’s
elements for each transaction to avoid liability. But
even though a defendant must meet each element for
each transaction, the same facts could establish §
550(b)’s elements for multiple transactions. Thus, §
550(b) does not generally require transaction-bytransaction jury questionnaires.
Nor do Segner’s cases. Relying on In Re SGSM
Acquisition Co., 439 F.3d 233, 241 (5th Cir. 2006),
Segner says the Fifth Circuit requires trial courts in
§ 550(b) cases to submit separate questions to juries
for each transaction at issues, Doc. 301-1, Pl. Mot.
New Trial, 10. Segner is wrong. In Re SGSM applied
§ 547(c)(4), not § 550(b). Under § 547(c)(4),
a trustee may not avoid a transfer
to or for the benefit of a creditor, to
the extent that, after such transfer
such creditor gave new value to or
for the benefit of the debtor-(A) not
secured
by
an
otherwise
unavoidable security interest; and
(B) on the account of which new
value the debtor did not make an
otherwise unavoidable transfer to
or for the benefit of such creditor.
25a

11 U.S.C. § 547(c)(4). In a prior case, the Fifth Circuit
rejected the “net result rule, under which ‘all new
value from subsequent advances was totaled and
deducted from all eligible preference payments,’” in
favor of a “transfer-by-transfer approach that asks
whether ‘(1) new value was extended after the
preferential payments sought to be avoided, (2) the
new value is not secured with an otherwise
unavoidable security interest, and (3) the new value
has not been repaid with an otherwise unavoidable
transfer.’” SGSM Acquisition Co., 439 F.3d at 241
(quoting Laker v. Vallette (In Re Toyota of Jefferson,
Inc.), 14 F.3d 1088, 1093, n.2 (5th Cir. 1999)). The
case says nothing about § 550(b) much less about how
jury charges must be worded.
Segner relies also on In Re Provident Royalties,
LLC, 581 B.R. 185 (Bankr. N.D. Tex. 2017), an earlier
opinion in this case. Doc. 301-1, Pl. Mot. New. Trial,
10. In the opinion, the bankruptcy judge applied the
single-satisfaction rule, which prevents a trustee from
recovering more than a debtor transferred. Provident
Royalties, 581 B.R. at 188-89. The bankruptcy judge
determined that it had to look at each transaction
that resulted in money flowing from Provident to
Ruthven to Cianna to apply the single-satisfaction
rule. Id. at 195. The opinion had nothing to do with
the § 550(b) affirmative defense and does not indicate
that the jury had to answer separate questions for
each of the Ruthven-Cianna transfers.
Nor does In Re Ramirez, No. 09-7004, 2011 WL
30973 (S.D. Tex. Jan. 5, 2011), help Segner. There the
court had to determine whether three transactions
were fraudulent, and therefore avoidable, under
26a

Texas law. Id. at *3–4. The case involved neither
federal law nor a jury trial. Id. And all the court said
was that it had to determine whether each of the
transactions were fraudulent. Id. at 4. The court said
nothing about how courts must instruct juries in §
550(b) cases, or about whether separate proof was
required for each transaction.
Nothing about the facts of this case require a
transfer-by-transfer jury questionnaire either. Segner
responds that the transactions were different from
one another because the amount of red flags
indicating fraud increased over time such that Cianna
was less likely to meet § 550(b)’s requirements for
later transactions than earlier ones. Doc. 301-1, Pl.
Mot. New Trial, 11. But although the alleged red flags
arose over time, Segner never argued that the court
or jury should view later transactions differently than
earlier ones. The jury moreover could have reasonably
believed that evidence pertaining to all of the
transactions showed that Cianna met § 550(b)’s
element for each transaction. After all, Kyle Shutt
testified that he had no dealings with Provident, no
knowledge of Provident or Ruthven engaging in
conduct indicating fraud on Provident’s creditors, and
that the transactions at issue were consistent with
Cianna’s normal business practices. Trial Tr. Vol. II,
43, 59, 170. And that testimony applies to all of the
transactions.
Segner argues also that the Court’s failure to
submit the case to the jury transfer by transfer
prevented the jury from applying the evidence to §
550(b)’s value element because one aspect of Cianna’s
value defense was that it gave value in the form of
27a

signing non-compete and non-disclosure agreements.
Doc. 301-1, Pl. Mot. New Trial, 13. According to
Segner, because Cianna signed the agreements after
it had completed many of the transactions at issue,
any value given in the form of the agreements could
have applied only to the transactions that occurred
after Cianna signed the agreements. Id. But signing
the agreements was only one potential source of
value. The jury heard evidence of value applicable to
all of the transactions: Cianna found and acquired the
mineral interested and warranted title in the
transactions. Doc. 299-7, Pl. Mot. New Trial App., Ex.
G; Trial Tr. Vol. II, 161. Because the jury could have
reasonably relied on the sources of value applicable to
all of the transactions, the Court declines to issue a
new trial based on jury-instruction error.
3.

Effect of Prior Findings

Segner challenges the Court’s treatment of
prior findings in two ways and attacks five of the
Court’s rulings in limine. Doc. 301-1, Pl. Mot. New
Trial, 14.
a.

The Court’s Summary-Judgment
Ruling that Cianna is a
Transferee

Segner argues that the Court erred by
permitting
Cianna
to
introduce
evidence
contradicting the Court’s summary-judgment ruling
that Cianna was a transferee as to the funds it
received from Ruthven. Id. Segner complains
specifically that Cianna’s evidence and argument
regarding how it spent money it received from
28a

Ruthven was a “disguised conduit argument.” Id. at
15.
Segner is incorrect. Cianna’s evidence and
argument that it did not keep all of the funds it
received from Ruthven did not contradict the Court’s
ruling because Cianna introduced evidence of how it
spent the money it received to show it acted in good
faith, not to argue that it is not liable for amounts it
spent. Doc. 317, Def. Mot. New Trial. Resp. Br., 22.
b.

Prior Findings Regarding the
Provident Scheme

Segner argues that the Court should have
allowed him to share certain “summary-judgment
findings” regarding Provident insiders’ criminal
convictions and prior dealings as well as actions the
Securities and Exchange Commission took in
response to the Provident scheme. Doc. 301-1, Pl. Mot.
New Trial, 16. But the Court allowed Seger to present
to the jury much of what it wanted. The Court allowed
Segner to elicit from Dennis Roossien testimony about
the double-flip pattern Joe Blimline used in the
Provident scheme and past fraudulent schemes, Joe
Blimline’s criminal conviction and admission of fraud,
and findings regarding Provident’s fraudulent nature,
and admitted evidence of kickbacks and inflated
prices. Trial Tr. Vol. III, 206, 215; Vol. IV, 29; Vol. V,
17–21. Segner can really only complain that the Court
should have let the evidence in earlier. But because
the Court ultimately allowed much of the evidence
and argument based on it, the Court’s initial decision
to exclude the evidence was not prejudicial enough to
warrant a new trial.
29a

c.

Orders in Limine

Segner argues that the Court’s ruling on five of
Cianna’s motions in limine gave Cianna an unfair
advantage that only a new trial can cure. June 25,
2018, Doc. 30-1, Pl. Mot. New Trial, 21. The Court will
address each of the five challenged rulings.
Segner first claims that the Court should not
have prohibited Segner from presenting evidence that
the same counsel that represented Ruthven and the
Provident criminal defendants represented Cianna
earlier in these proceedings. Id. at 21. The Court’s
ruling was unfair, according to Segner, because
Cianna presented evidence that Segner had
relentlessly pursued Cianna for seven years, but,
because of the Court’s ruling, Segner could not
present evidence that this case had taken so long in
part because of Cianna’s decision to be represented by
an attorney who also represented Ruthven and the
Provident criminal defendants. Id. But Segner waived
its objection to this ruling by failing to offer the
excluded evidence at trial. Regardless, Segner’s
argument lacks merit. Why these proceedings have
lasted for so long was hardly relevant to the issues
before the jury, so keeping out evidence of Cianna’s
prior counsel did not prejudice Segner enough for the
Court to order a new trial.
Second, Segner challenges the Court’s decision
to exclude evidence of how Kyle Shutt spent the
money Cianna received from Ruthven. Id. Segner
wanted to present evidence that, at the relevant time,
Shutt purchased a Jaguar and two “modern art
‘snake’ lamps” for about $233,000. Id. Segner
contends that it was unfair to prevent him from
30a

introducing evidence of Shutt’s purchases because
Cianna was allowed to elicit testimony from Shutt
that he tithed to his church and spent the money he
received from Ruthven in other run-of-the-mill ways.
Id. Again, Segner did not attempt to admit this
evidence at trial. And even if Segner’s evidence of
what Shutt purchased was relevant and probative, it
was not important enough for its exclusion warrants
a new trial.
Third, Segner complains that the Court should
have allowed his attorneys to present evidence and
argue that violating the ODSTA is a serious crime and
that Shutt exposed himself to over 100 years in prison
by violating it. Id. But Segner discussed the act at
length in front of the jury. Not much would have been
gained by telling the jury the extent of the penalty
Shutt would have faced for violating the act. Although
whether Cianna violated the act is probative of good
faith, the extent of the penalty for violating the act is
not. So, the Court finds that its ruling on Cianna’s
sixth motion in limine was not prejudicial enough to
warrant a new trial.
Fourth, Segner claims that the Court’s ruling
on Cianna’s fifth motion in limine unfairly prejudice
him by preventing him introducing Dennis Roossien’s
testimony about the Provident scheme and criminal
convictions until the end of the trial. Id. at 22. The
Court has already addressed this argument.
Segner’s fifth argument concerns the Court’s
ruling on Cianna’s seventh motion in limine, which
excluded an email from Wendall Holland of Ruthven
to Joe Blimline that discussed kickbacks and the
artificially high prices at which Ruthven was selling
31a

mineral interests to Provident. Id. But, like
Roossien’s testimony, the Court allowed Segner to
present the email to the jury. Thus, the Court’s initial
decision to exclude email was not prejudicial enough
for Segner to deserve a new trial.
4.

Verdict Against Great Weight of
Evidence

Segner says the Court must grant a new trial
because the jury’s verdict was against the great
weight of the evidence. Id. at 23. A court can grant a
new trial if “the jury verdict was against the great
weight of the evidence.” Scott v. Monsanto Co., 868
F.2d 786, 789 (5th Cir. 1989) “Mere conflicting
evidence or evidence that would support a different
conclusion by the jury cannot serve as the grounds for
granting a new trial.” Islander E. Rental Program v.
Barfield, 145 F.3d 359 (5th Cir. 1998) (per curiam).
The jury’s verdict was not against the great
weight of the evidence. As to §550(b)’s value
requirement, Cianna presented evidence that it
found, acquired, and transferred to Ruthven the
mineral interests Ruthven wanted and warranted
title to those interests. Trial Tr. Vol. II, 43, 161.
Segner is incorrect that Cianna’s failure to present
evidence of the value of the mineral interests and its
own evidence of the interests’ lack of value requires
the court to discount Cianna’s evidence. And Segner’s
evidence that Cianna received more than it gave
Ruthven at best conflicts with Cianna’s evidence.
Conflict, though, is not enough for the Court to grant
a new trial.
32a

As to the good faith and knowledge
requirements, Cianna’s principal, Shutt, testified
that Cianna had a longstanding business relationship
with Ruthven, Trial Tr. Vol. I, 79, 84–90, he had no
contact with and knew nothing about Provident, Trial
Tr. Vol. II, 43, 170, the Ruthven transactions were
similar to Cianna’s transactions with other clients,
Trial Tr. Vol. I, 75–77, and that he was never actually
aware that Provident or Ruthven had engaged in
fraudulent or otherwise unlawful conduct. Trial Tr.
Vol. II, 170. Although Segner presented evidence it
believed contradicted Cianna’s evidence, Cianna’s
evidence is more than sufficient to support the jury’s
verdict. The jury could have reasonably believed
based on the evidence before it that Cianna
transacted with Ruthven as a matter of normal
business. Even if the jury could have found for Segner
based on the same evidence, the Court finds the
verdict was not against the great weight of the
evidence.
IV.
CONCLUSION
The Court DENIES Segner’s motion for
judgment as a matter of law and his motion for a new
trial.
SO ORDERED.
Signed: June 28, 2018.
s/ Jane J. Boyle
JANE J. BOYLE
UNITED STATES
DISTRICT JUDGE
33a

EXCERPTS FROM JURY INSTRUCTIONS
IV.

CIANNA’S AFFIRMATIVE DEFENSE

Milo Segner filed this lawsuit against Cianna
attempting to recover $21.7 million that Cianna
received from Provident via Ruthven. As a result of
prior findings in this case, the burden has been on
Cianna in this trial to establish an affirmative
defense to liability. In cases like this one, a defendant
in Cianna’s shoes can avoid having to return money
by showing each of three things by a preponderance
of the evidence.
...
Second, Cianna must establish that it received
the money in good faith. Good faith generally refers to
the legitimacy of a business transaction, and whether
parties acted in good faith can be determined only on
a case-by-case basis by looking to all of the
circumstances surrounding the transaction. A person
acted in good faith if she lacked information that
would put a reasonable person in her line of work on
notice of fraudulent intent underlying the
transactions at issue, and, if she actually had such
information, she would not have discovered the fraud
after inquiring diligently into the circumstances
giving rise to notice of potential fraud . . . .

34a

2.
Did Cianna show by a preponderance of the
evidence that it received the money in good faith?
To determine whether Cianna acted in good
faith, you must consider all of the facts and
circumstances surrounding the transactions about
which you have heard. Generally, you must determine
whether Cianna was on notice of the fraudulent
nature of the transactions that resulted in it receiving
the money from Provident via Ruthven. Whether
Cianna was on notice depends on how you answer two
questions. To answer “yes” to this question, Cianna
must have shown that it lacked information that
would put a reasonable person in Cianna’s line of
work on notice of fraudulent intent underlying the
transactions at issue. Second, to answer “yes” to this
question, if you believe Cianna actually had
information that would put a reasonable person in
Cianna’s line of work on notice of fraud, Cianna must
have shown that a diligent inquiry would not have
discovered the fraudulent purpose. So did Cianna
receive the money in good faith?
Yes __X__

35a

No ______

